           U.S. Department of
                                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                             Date:   June 4, 2012
           Single Audit on Pace, the Suburban Bus Division
           of the Regional Transportation Authority
           Report No. QC-2012-139
                                                                                          Reply To    JA-20
  From:    Earl C. Hedges                                                                  Attn Of:
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region V

           The U. S. Department of Transportation (DOT) is the cognizant Federal single audit
           agency for Pace, the Suburban Bus Division of the Regional Transportation
           Authority, Northeastern Illinois. This report presents the results of our Quality
           Control Review (QCR) of a single audit performed by Crowe Horwath LLP on Pace
           for the fiscal year ending December 31, 2010. During this period, Pace expended
           approximately $50 million from DOT grant programs, as shown on the attached
           Schedule of Expenditures of Federal Awards. The DOT program determined to be
           major by Crowe Horwath LLP was the Federal Transit Cluster.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations,” requires the auditor to render
           an opinion on the entity’s financial statements, identify inappropriate use of Federal
           funds, and report internal control and compliance deficiencies that affect Federal
           grant programs.

           Crowe Horwath LLP rendered an unqualified (clean) opinion on Pace’s financial
           statements and did not question any cost concerning DOT’s grant programs.
           However, Crowe Horwath LLP rendered a qualified opinion on DOT’s major
           program because of non-compliance with Davis-Bacon Act requirements. 1

           SCOPE

           The purpose of our QCR was to determine: (1) whether the audit work complied
           with generally accepted Government auditing standards, the Single Audit Act
           of 1984, as amended (the Act), and OMB Circular A-133, and (2) the extent to which
           we can rely on the auditor’s work.

           1
               We advised FTA about this deficiency in a separate memorandum. The single audit report issued by Crowe Horwath
               LLP is available upon request sent to singleauditrequest@oig.dot.gov.
                                                                                  2

RESULTS

We determined that Crowe Horwath LLP’s work was Acceptable, and therefore met
the requirements of generally accepted Government auditing standards, the Act, and
OMB Circular A-133. We found nothing to indicate that Crowe Horwath LLP’s
opinion on Pace’s reports on internal control and compliance were inappropriate or
unreliable.

If you have any questions concerning this report, please call me at (410) 962-1729, or
John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                         #


cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Chief Financial Officer, Pace, the Suburban Bus Division of the RTA
